* 4

No.

Js,
Supreme Court, US
filed

JUL 2 0 2021
OFFICE OF THE CLERK

f

IN THE

SUPREME COURT OF THE UNITED STATES

Erasmo “Eddie” Mendia - PETITIONER

Shane Moyer, “etal.”- RESPONDENT®)

ON PETITION FOR A WRIT OF CERTIORARI TO
\

i

v

KANSAS COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

ERASMO “EDDIE” MENDIA

1706 S ELLIS ST.

WICHITA, KS., 67211

1-316-993-5446
eddie mendia@vahoo.com

QUESTION(S) PRESENTED

1.
Whether, my civil liberty rights; racial Justice; require private
citizens to have probable cause and search warrants to obtain geolocation data,
lacking these amounts to violating constitutional rights of equal protection, due
process of the law, In the protection from virtual trespassing and virtual invasion of
privacy.

2.

Whether when, the head Judge enters a Journal Entry on the hearing
of plaintiffs Affidavit of prejudice for removal of trial judge, long after the trial
judge entered the journal entry on the verdict, and the plaintiff has an active Notice
of Appeal filed Amount to a denial of equal access to Justice and protection of the
Laws for the Kansas Court of Appeals to ignore that 2nd journal entry denying
plaintiff the right to appeal that 2nd journal entry, which produced an unfair trial.

Whether when the defendant having been given judgment on all
issues, except their liability as to an unnamed 3rd party, are allowed to present
their whole case to the jury, while by direct court order plaintiff could not address
their complicity but only a very narrow showing of what their 3rd party
coconspirator did, amount to a denial of a fair trial, as protected by Law and did
defendants forfeit their summary judgment decision.
3.

4.
Whether when 3 young people track, stalk, causing injury and
damages, by Means of modern I Phone technology, to an elderly Mexican American,
amount to the denial of equal protection of the laws, when they are not prosecuted
for the loss/planting and use of a tracking device without a Court Order.

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

RELATED CASES
None that I can find relating to civil virtual trespass, and civil virtual invasion
of privacy.

' 9

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

16

CONCLUSION

17

INDEX TO APPENDICES

APPENDIX A Decision of Kansas Court of Appeals

APPENDIX B Decision of Sedgwick County Kansas District Court

APPENDIX C Decision of State of Kansas Supreme Court Denying Review

t ' '

m

TABLE OF AUTHORITES CITED
CASES

PAGE
NUMBER

Enticlc v. Carrington, 95 Eng. Rep. 807 (C.P. 1765)
6
Frisby v. Schults 487 U.S. 474(1988)(quoting Gregory v. Chi, 394 U.S. 111,125(1969);
6
id (quoting Carey v. brown, 477 U.S. 45 471(1980)
(DIGITAL) Trespass: What is old is new again Denver Law Review[Vol. 94]
6
Hustler Magazine v. Falwell 455U.S. 46 51-52(1988)
6
6
KATZ v. US, 389; US. 347,361 (1967)
Tech policy.com/Blog/June-2012/the-fourth amendment-and-the Common -Law 6
Trespass-t.as
6
Rest. 2nd of Torts 652B
6
U.S. v. Jones, 132 S. Ct. 945-54 (2012)
6
Southern Illinois U. L. J.,69-79(2006)
6
Bartnicki v. Vopper 121 S. Ct. 1753-76(2001)
6
Citizen for Health v. Leavitt S. Ct. 428 F ,3d 167 (2005)
6
VETTER v. MORGAN, 22 Kan. App. .2d 1,8;913 P .2d 1200 (1995)
6
GAITHER, 22 Kan. App. 2Nd 913 P 2d 1200 (Kan. 1995)
6
KATZ v. US, 389 ; US. 347,361 (1967)
6
CANNON ,274 KAN. 166 (2002)
“GEOLOCATIONAL PRICACY AND SURVEILLANCE ACT, H.R. 2168,112th CONG.(ist
6
Sess. 2011),S.B. 1212,112th Cong. (ist Sess. 2011).
Joshua A Engel, Doctrinal Collapse: Smart Phones Cause Courts to Reconsider Fourth
6
Amendment Searches of Electronic Devices,41 U.MEM.L.REV. 233,248 (2010)
ECPA 2.0 Act of 2012, H.R. 6529,112th Cong.(20i2), available at
6
hpp://www.gpo.gov/fdsys/pkg/BILLS-ii2hr6529ih/pdf/BILLS-ii2hr6529thpdf.
Allie Bohn, ACLU(Sept.io,20io) see http://www.aclu.org/blog/technology-and-libertynational6
security/new-results-our-nationwide-cell-phone-tracking-records.
3
58 C.J.S. pp. 65-66 section 58, defendants are claim jumpers.
53 Duke L.J. 967 (2003) homeless are urban-prospectors

3

Law of finds, 974 F.2d 450 ;525 F. Supp.atl98; 3 AM. Norris, Benedict on
3
admiralty law; The Law of Salvage (7thEd. Rev. 1991
Cob Coin, 525 F. Supp. At 198, when item salvaged are uniquely and
3
intrinsically of value an award in specie is more appropriate.
75 AM. Jur. 2D section 55 conclusions and interpretations are questions of
3

Law

IV

“Ad Colum “of sovereign space Prohibits subjecting Kansans to GPS electronic
signals without their informed consent, see, 358 F. Supp.l32l(D. Kan.1973) later
cited in 490 F.2d572..
3
GPS electronic signals are a Clandestine means and in bad faith when used
on a person without their informed consent per THE VERN MILLER DOCTRINEMILLER VS. AMTRACK
3
Paul Gewirtz, privacy and speech ,2001 S.Ct. Revl39 (relying, in part, on
the concept of a protected “’’ZONE”” of privacy, [ ad colum ] which bears some
similarity to reliance on "SPHERES” of speech as a basis for determining the
nature of constitutional protections).;
3
Daniel J Solove, The virtues of knowing less ; Justifying privacy Protections Against
Disclosure, 53 DUKE L.J. 967(2003) encapsulates anonymity, privacy and
associations protected by a CLOAK of anonymity created by the 1st Amendment.
Such as vulnerable individuals or groups-homeless urban-prospectors.
3
The Judiciary Act of 1789 pronounced “ [t]hat in all Courts of the U.S. , the parties
may pled and manage their own causes personally see Ch. 20, & 35, 1 Sat. 73,
92(emphasis added) Congress has also codified the statutory right of EQUAL access
to the Courts see, 28 U.S.C. &1654(2006)-‘When plaintiff has to proceed without an
attorney afflicted by severe mental trauma directly caused by the defendants he
does not have equal access but is subject to judicial indifference favoring fellow
members of the bar, and dealing with court decisions timely file stamped but
withheld for 20 days before being scanned into journal record.
3

V

STATUTES AND RULES

KSA 21-5808
KSA 21-5223
KSA.8-1506
KSA. 8-1602

KSA 60-212(c)
KSA 70-102 ordering by law the manner to proceed, fiduciary custodial possession.
K.S.A. 50-619 homeless are urban prospectors prospecting for valuables
K.S.A. 50-618 homeless urban prospect for junk
LAW OF THE CASE K.S.A. 60-401 (b) citizens have a right to free use of the
roadway free of pranksters. See. Vetter 22 Kan. App. 2d 1; 913 P .2d 1200(1995)

OTHER
Wichita, KS. City Ordinance 5.48.020 Plaintiff engaged with and have grub-staked
homeless for years.
Jack v. City of Wichita, 23 Kan. App. .2d 606,607-08, 933 P .2d 787(1997) citing
Tabor v Lederer, 205 Kan. 746-748, 472 P .2d 209 (1970) The Motion was to dispose
of the case without trial BECAUSE the pleadings frame the issues in such a way
that the plaintiff position in the case is a matter of Law on the facts alleged,
admitted by defendants leaving no real triable issues.

VI

IN THE

SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW

[X] For cases from state courts.
The opinion of the highest state court to review the merits appears at;
APPENDIX A

to the petition which is that of the Kansas Court of Appeals.

To the petition and is unpolished.

APPENDIX B

The opinion of the Sedgwick County KS State Court,

to the petition and is[X] is unpublished

APPENDIX C
Decision of Kansas Supreme Court Denying Review

Page 1

JURISDICTION
[] For cases from state courtsThe date on which the United States Court of Appeals decided my case was March
5, 2021 a copy of that decision appears at Appendix A.
The jurisdiction of this Court is invoked under 28 U. S. C. 1257(a).

Page 2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

58 C.J.S. pp. 65*66 section 58, defendants are claim jumpers.
53 Duke L.J. 967 (2003) homeless are urban-prospectors
Law of finds, 974 F.2d 450 ;525 F. Supp.atl98; 3 AM. Norris, Benedict on
admiralty law; The Law of Salvage (7thEd. Rev. 1991
Cob Coin, 525 F. Supp. At 198, when item salvaged are uniquely and
intrinsically of value an award in specie is more appropriate.
75 AM. Jur. 2D section 55 conclusions and interpretations are questions of Law
“Ad Colum “of sovereign space Prohibits subjecting Kansans to GPS electronic
signals without their informed consent, see, 358 F. Supp.l32l(D. Kan.1973) later
cited in 490F.2d572..
GPS electronic signals are a Clandestine means and in bad faith when used
on a person without their informed consent per THE VERN MILLER DOCTRINEMILLER VS. AMTRACK
Paul Gewirtz, privacy and speech ,2001 S.Ct. Rev 139 (relying, in part, on
the concept of a protected “’’ZONE”” of privacy, [ ad colum ] which bears some
similarity to reliance on "SPHERES'* of speech as a basis for determining the
nature of constitutional protections).;
Daniel J Solove, The virtues of knowing less ; Justifying privacy Protections Against
Disclosure, 53 DUKE L.J. 967(2003) encapsulates anonymity, privacy and
associations protected by a CLOAK of anonymity created by the 1st Amendment.
Such as vulnerable individuals or groups*homeless urban-prospectors.
The Judiciary Act of 1789 pronounced “ [tlhat in all Courts of the U.S. , the parties
may pled and manage their own causes personally see Ch. 20, & 35, 1 Sat. 73,
92(emphasis added) Congress has also codified the statutory right of EQUAL access
to the Courts see, 28 U.S.C. &1654(2006)"When plaintiff has to proceed without an
attorney afflicted by severe mental trauma directly caused by the defendants he
does not have equal access but is subject to judicial indifference favoring fellow
members of the bar, and dealing with court decisions timely file stamped but
withheld for 20 days before being scanned into journal record.

Page 3

KSA 60-212(c)
KSA 70-102 ordering by law the manner to proceed, fiduciary custodial possession.
K.S.A. 50-619 homeless are urban prospectors prospecting for valuables
K.S.A. 50-618 homeless urban prospect for junk
LAW OF THE CASE K.S.A. 60-401 (b) citizens have a right to free use of the
roadway free of pranksters. See. Vetter 22 Kan. App. 2d 1; 913 P .2d 1200(1995)
Wichita, KS. City Ordinance 5.48.020 Plaintiff engaged with and have grub-staked
homeless for years.
Jack v. City of Wichita, 23 Kan. App. .2d 606,607-08, 933 P .2d 787(1997) citing
Tabor v Lederer, 205 Kan. 746-748, 472 P .2d 209 (1970) The Motion was to dispose
of the case without trial BECAUSE the pleadings frame the issues in such a way
that the plaintiff position in the case is a matter of Law on the facts alleged,
admitted by defendants leaving no real triable issues.

5,
U S Co/rd-itvffM h/n&lS9'/

/8

^ /)

k\oy^Mofsu V, 0,5 .j 323 OS. 2)if
/

/

Mh, ko8 o, $, $£ v f/9 72.)
W(tih-eietS 2,
, 4a y 02, ^21 O
U •'

/t

CaoJ Coy

Page 4

S, Ct /02?

STATEMENT OF THE CASE

The Supreme court of Kansas declined to review on March 5th,2021. The
Kansas Court of Appeals denied on September 4th, 2019. Plaintiff filed for review
to Ks. Supreme Court on September 30th, 2019. Plaintiff filed a notice of appeal
from the Sedgwick County District Court Journal Entry on April 23,2019. Judge
Fleetwood Filed a journal entry on May 22 ,2019. The Sedgwick district Court filed
Journal entry memorializing the jury’s verdict on November 20th, 2018 plaintiff
filed, six days later, on November 26, 2018. (Motion for mistrial, Jury Bias and
Motion to reconsider summary Judgment order. Based on Defendant’s trial
testimony) Per KSA 2103a!60-252(b) or 60*259 stating for a mistrial based upon
statement made by jurors during voir dire, and the fact defendants forfeited their
summary judgment decision of September 7, 2018 by trying their case before the
Jury, while plaintiff by court order, was only allowed to address the events as to
when Mr. Bower appeared at his driver’s window demanded the cell phone in my
custody.” I stated to him follow me to the QuikTrip store and I will turn over the
found cell phone to the Police who will find the rightful owners Mr. Bower became
enraged called me “a F
N....... I’ll take that damn phone as I was rolling up my
window, which he grabbed and yanked outward shattering everywhere grabbed my
left arm and started pulling me through the window when he noticed the cell phone
in my hand. He forced it out of my hand and started running “back to the truck
driven by Shane Moyer who had forced me into a panic stop with his truck. Which
the defendants objected cause Mr. Moyer name and truck, which was beyond the
parameters allowed to the plaintiff. The trial Judge did ask the jury to decide a
question of law as to whether they were liable for the actions of a coconspirators.

On May 22, 2019 Judge Fleetwood filed his Journal entry for the hearing
before him. Which was held November 5th, 2018. Regarding Plaintiffs affidavit of
Prejudice for recluse of the trial Judge. That’s 8 months later which Plaintiff
contends restarts the filling date for a notice of Appeal. I had notice of Appeal filed
on April 23, 2019. Which covers Judge Fleetwood’s Journal entry of May 22, 2019. [
Which the court of appeals Kansas ignored]. This was included in my docketing
statement filed on June 18, 2019. The Request for transcript of November
19th,2018 stated in part “be prepared for the post-trial motions and/or the appeal of
this case.” Which satisfy the stature. KSA 60-2103(b); 60-258; 60-250(b); 60-252(b)
v
or 60-259.
Page 5

The root cause of the case was that Ms. Harmon lost her I phone 5 realizing
this on March 8 TH, 2015. She called her boyfriend Mr. Moyer to use his own
personal I phone to start pinging through the means of a GPS electronic signal from
his own home in Haysville, KS to locate her I phone. When he did he went to go pick
her up then on to pick up her brother Mr. Bauer for extra help.
Entick v. Carrington, 95 Eng. Rep. 807 (C.P. 1765)
Frisby v. Schults 487 U.S. 474(i988)(quoting Gregory v. Chi, 394 U.S. 111,125(1969); id
(quoting Carey v. brown, 477 U.S. 45 471(1980)
(DIGITAL) Trespass: What is old is new again Denver Law Review[Vol. 94]
Hustler Magazine v. Falwell 455U.S. 46 51-52(1988)
KSA 21-5808
KSA 21-5223
KATZ v. US, 389; US. 347,361 (1967)
Tech policy.com/Blog/June-2012/the-fourth amendment-and-the Common -Law Trespass-t.as
Contrary to KSA 70-102 they themselves went to take back the I phone.
Then they ran from the scene of the accident before the police could arrive.
Froclich,2i3 Kan. At 360,516 P.2d @ 997;id @ 363 516 P.2d @ 998 ; 357,Syl. 2,516 P ,2d @994
tech policy.com/Academics/citron.aspx, speech,privacy,civil rights without my
concent,cyber civil rights.
KSA.8-1506
KSA. 8-1602
Rest. 2nd of Torts 652B
U.S. v. Jones, 132 S. Ct. 945-54 (2012)
Southern Illinois U. L. J.,69-79(2006)
Bartnicki v. Vopper 121S. Ct. 1753-76(2001)
Citizen for Health v. Leavitt S. Ct. 428 F ,3d 167 (2005)
VETTER v. MORGAN, 22 Kan. App. .2d 1,8;913 P .2d 1200 (1995)
GAITHER, 22 Kan. App. 2Nd 913 P 2d 1200 (Kan. 1995)
KATZ v. US, 389 ; US. 347,361 (1967)
CANNON ,274 KAN. 166 (2002)
“GEOLOCATIONAL PRICACYAND SURVEILLANCE ACT, H.R. 2168,112th CONG.(ist
Sess. 2011),S.B. 1212,112th Cong. (ist Sess. 2011).
Joshua A Engel, Doctrinal Collapse: Smart Phones Cause Courts to Reconsider Fourth
Amendment Searches of Electronic Devices,41 U.MEM.L.REV. 233,248 (2010)
ECPA 2.0 Act of 2012, H.R. 6529,112th Cong.(2oi2), available at
hpp://www.gpo.gov/fdsys/pkg/BILLS-ii2hr6529ih/pdf/BILLS-ii2hr6529thpdf.
Allie Bohn, ACLU(Sept.io,20io) see http://www.aclu.org/blog/technology-and-libertynationalsecurity/new-results-our-nationwide-cell-phone-tracking-records.
Page 6

Later The police recorded their statements. Progressive Insurance claim adjuster
took Mr. Moyer's statements recording them admitting to his liability of running
plaintiff out of his lane and over curbs.
During the dependency of the case Ms. Welch paid for by Progressive
Insurance on several occurrences engaged Judge Dahl within seconds of the
hearings with extrajudicial conversations in a pointed flirting exchange with lots of
giggles about her partners losing a big case in the judge’s courtroom amounting to a
size-able plaintiffs’ verdict. In seeing Judge Dahl responding, leaning in towards
her, to enjoy her flirting manners, I had to leave the court room feeling I was
intruding in an intimate encounter. I waited in the hall for 10 minutes then seeing
they were still at it I just left.
I filed a KSA 60*212 c Motion for Judgment on The Pleadings with
supporting exhibits, this being my true intension. In defendant’s response they
asked the court not to address my Motion and the court never did. Plagued with
severe emotional trauma, I mistakenly filed a KSA 60*256
Summary Judgment
Motion allegedly not in compliance with Supreme Court rules, 141 and 141a. Judge
Dahl ruled against my KSA 60- Summary Judgment but let stand my KSA 60-212
c Motion unaddressed. Judge Dahl filed his Summary Judgment Order denying all
my claims with respect to the KSA 60-256
Summary Judgment Motion I had
filed by mistake, for non-conforming to Supreme Court Rules. The exception was an
Order for a trial to see if Mr. Moyer could be found liable for injuries and damages
he caused outside Mr. Moyer’s truck, by Casey Bauer a co* conspirator. This is
solely a question of law. He was not named in the lawsuit by name, no recovery
possible at all. He was a coconspirator. I was under direct orders not to address the
verdict question at all. The jury could not consider my testimony or exhibits by me
following instructions only about the verdict instruction.My KSA 60*212 c Motion
would be effectively buried under trial and appeal statutes and procedural
questions.
On November 5th, 2018 1 filed a Motion for Recluse of Judge Dahl because of
extreme favoritism. It was denied. The I presented Affidavit of Prejudice and was
taken to Judge Fleetwood to rule on that affidavit charged extreme favoritism
evidenced by the lack of legal reasoning in summary judgment order and putting a
question of law to the jury'. Judge Fleetwood didn't feel Judge Dahl’s action were
blatant enough for recluse, stated could not rule on issues set for trial would have to
wait for appeal, for the trial to go on.
The trial was had under my objection otherwise Judge Dahl would have
dismissed the case he stated. There was no verdict. They were being asked a
question of law which they wrote down no. this is not a trial at all void of due
Page 7

process and equal access to present claims, forbidden by will of the People in their
Constitution Bill of Rights #3 and #18 and 14th Amendment K.S. Constitution.
Plaintiff filed a Motion within days of Judge Dahl filed the Journal entry after
the nugatory trial was had. It was agreed to wait to have the hearing until the
transcripts of the trial were produced. There were delays due to injuries of the
reporter. The hearing was on April 16 2019. During the hearing Judge Dahl
produces direct evidence of favoritism by openly advocating giving legal advice to
defendant's attorney about the proper Kansas statutes to use. Judge Dahl dismissed
all of Plaintiffs claims.
Plaintiff filed his Notice of Appeal, after waiting for the transcript to be filed to
see if Judge Dahl advocating for defendants made it into the record.
Notice of Appeal was filed. Plaintiff started getting the Docketing Statement
ready for the Court of Appeals. The Docketing Statement was sent in on June
18,2019. It contained Judge Fleetwood's Journal Entry that was file into the
District Court's Journal Records on May 22 ,2019 marked as page 6 in the
Docketing Statement. Page 1 number 2 c. His Journal Entry file date of May
22,2019 amended my Notice of Appeal to be effective from the Journal Entry file
date per the language of the Notice of Appeal.
The Docketing Statement was the only filing filed at the Court of Appeals and
is not a record as per statute but it clearly states Judge Fleetwood's as the last
controlling Journal Entry for appeal purposes. THE APPEALS COURT USED THE
WRONG JOURNAL ENTRY as the basis to form its conclusion of not having
Jurisdiction then ordering dismissal. Not the will of the People. Ks. Bill of Rights
#3 The Appellate Court abused its desecration in that the bases for its decision was
on the wrong journal entry. See Frost v Hardin, 218 Kan,260-63 (1975). also 203
Kan.289-93., No reasonable person would take the view, decision adopted by the
court of appeals. See 271 Kan. 355-68 (2001) it is repugnant to the Constitution.
Judge Fleetwood is the presiding judge of the district court, heard evidence
pertaining to the case and also filed a journal entry on issues intrinsic to this very
case being the final journal entry per statute, KSA 60*258...KSA 60-254 (b) and 602102, 2007 supp. The correct journal entry was on May 22, 2019 signed by Judge
Fleetwood which became the basis of Plaintiff Appeal, regarding favoritism to
defendants, when it was filed. At the time of the May 22, 2019 filing the Plaintiffs
Notice of Appeal had been on file at the Appellant Court for 29 days and was
applicable to the May 22, 2019. Journal Entry filing. The issues were even more
relevant because it addressed allegations that went beyond the trial but also to the
conduct of the trial, but filed
Page 8

before the transcript was finished on August 16,2019.
That filing of the
transcript records shows how Judge Dahl on the record sided with the Defendants
representing for the record the correct Kansas Statue to use in argument by
Defendants Attorney who was calling in form Missouri direct prima facie proof of
still being under Pamela Welch’s flirtation vexing spell an agent paid for by
Progressive Insurance compromising a district court Judge to be extremely
favorable to the defendants in his decisions in the case.
The plaintiff docketing statement was submitted on June 18, 2019 contained Judge
Fleetwood's May 22, 2019 Journal Entry numbered as Page 6. The docketing
Statement page I # 2 b Lists Judge Fleetwood as other Judges who signed orders.
Then on C. James Fleetwood listed as he disposed of the case in District court. THIS
ESTABLISHES THE APPELLATE COURTS JURISDICTION. This being Judge
Fleetwood's Journal Entry on May 22, 2019.
Plaintiffs NOTICE OF APPEAL of April 23, 2019 was timely encompassing Judge
Fleetwood Journal Entry of MAY 22, 2019. a direct appeal thereof. The issue of KSA
2018 Supp. 60-2013 (a) would not apply if the correct focus on Judge Fleetwood's
Journal Entry as the Appellate Courts basis was to have been used by the Appellate
Court. This would be proper in that # 6, of Plaintiffs DOCKETING
STATEMENT filed June 18,2019. Starts with naming Judge Fleetwood conducting
a hearing on Nov 5,2018 hearing more important issues than that of the trial that
happened later that day. It was the intent of the Judge Fleetwood in filing his
Journal Entry to have it supersede Judge Dahl's trial Journal Entry so that
JUSTICE would prevail in this case. Judge Fleetwood was aware of the issues in
the case but did not "feel “that I established prejudice of favoritism by Judge Dahl
even though Pamela Welch admitted to extra Judicial conversation that did have an
effect on the mind of Judge Dahl as KSA 60-441& 404 recognizes that there is no
question of the mental process since there is no possible way to test the truth or
veracity. See Manhattan v. Eldred, KS. Ct. App. (1989). Judge Dahl’s ruling were
against the weight of the evidence. See Butter v. HCA Health (Ct of App. KS.
1999). Pamela Welch and Judge Dahl admitted to extraneous conversational
influence. Ms. Welch before Judge Dahl and Judge Fleetwood, and Judge Dahl from
the bench in addressing the Motion for recluse. How those influences then operated
upon Judge Dahl's mind is revealed by his legal decisions and his directly siding
and advocating giving legal advice to defendant's attorney during a hearing on the
record.
Judge Fleetwood could not intervene in the issues of the upcoming trial claims,
which could only be done on appeal, but wanted the proceedings to run their course
Page 9

relying on time to manifest as to any claims made by plaintiff. Judge Fleetwood's
journal entry purposed this to be the vehicle to accomplish JUSTICE to the victim
in the matter before him.
Therefore, as the Appellate Court has cited Northern v ONEOK 916 Kan.296, citing
Harsch v Miller, 288 Kan. 280 on page 289 (" Appeals to the Supreme Court may be
taken from any final order under KSA 2007 supp. or KSA 26-504 or KSA 60254(b). Judge Fleetwood's purposed his Journal Entry as certification as the final
Order on all issues based and referenced in plaintiffs MOTION FOR RECLUSE and
AFFIDAVATE OF PREDJUDICE in conforming to KSA 60*254(b). see, eg.,
Wilkinson,256 Kan. At 146-47. Judge Fleetwood's Journal Entry purposed to secure
the JUST, speedy and inexpensive determination of this action pursuant to the
Kansas Public Policy. See, Connell v State Highway Comm., 192 Kan. 371-74(1964),
see also Cooke v Gillespie, 285 Kan. 748-54(2008). The purpose of an action is
revealed by the effect or function it produces.
Limits set by its statutes, see generally KSA 2007 Supp. 60-2102 appeals and KSA
2018 Supp. 602103(a)-time limits. The Kansas Poor, Pro Se vs the giants of the
justice monopoly championed by the Bar Association (the profession) administered
by the Courts. Kansas has addressed this confrontation in its early years with the
adoption of the Kansas Constitution 1859. The Supreme Court justices were in tune
with the people's rock-solid Constitution (The Law), that protected ALL the people
of the State „ The 2010 census counted 2,853,118 Kansans with 12.8% 361,000
below the poverty line. In Anderson v Cloud County, 77 Kan. 721 (KS. S. Ct. 1908)
Herein Judge J. Porter determined that Constitutional protections are based upon
the theory that the State is a unit, to be governed throughout its length and breadth
on all subjects of common interest by the same Constitution, and that these
Constitutions are public laws in their application and uniform in their application
until the people shall change the Constitution themselves. Here is the gist of the
matter the Constitution is the public law that affects the welfare of the state as a
unit. A private law such as KSA 2018 Supp. 60-2103(a) time limits and KSA 2007
Supp.60-2102 appeals and 304 Kan.80*87(2016) as these are applied to the poor ,
pro se are ones that provides an exception to the Constitution being a species of
class legislation to benefit the Bar disregarding what the people embedded in their
Constitution, with protections for all the people as an emphatic declaration of their
determination to strike at the root of the evil, casting aside the poor pro se ,
purposing to the relying upon the vigilance of the courts to restrain themselves and
the actions of the legislature. The courts shall give the constitutional protections to
all the people as intended by the people. The mere mention of naming those rights
is recognition of this necessity.
Page 10

The People have enumerated that the provisions of the Bill of Rights of Kansas’s
i

Constitution #1, #3, #18 shall not be abridged and the Legislature shall NOT pass
laws that may have interpretations to have the effect to limit a whole section of
Kansans equal access to have their petitions properly determined by
government/courts thereby creating a preference for the rich who can afford
attorneys. To accomplish that outcome the Constitution nor Bill of Rights do NOT
state that a person:
1.

Have legal training in speech, writings even to be able to state a claim.

2.

Adhere to rules or procedures adopted by legislatures or courts

3.

Not subject to time limits when not expressly stated to them by the court.

4.
Not subject to the adversarial process that the justice monopoly has
instituted by Bar members.
i.e. failed to respond to made up statements by opposing counsel.
5.
No latitude or leniency is too much when attempting to recover for injuries
and damages from those liable. JUSTICE
6.
No acknowledgments or adoptions by courts shall infringe rights protected by
Bill of Rights. It is not a question of being unable, unwilling, or declaring to find
that right—They were embedded in the Constitution no interpretations needed. It’s
incorrectly stated in State v Gill,287 Kan. 294 citing 278 Kan. 109-111 (2004) The
Constitution mandates no need for findings such as 296 Kan. At 99-102. The record
relied on by the Appeals Court is unknown and/or made up by the district court
appeals clerk, Sedgwick County.
7.
The right to appeal is maintained by the people when the court has not
accomplished or satisfied the rights protected by the Kansas Constitution Bill of
Rights #1, #3, #18 i.e. until a court rule on my KSA 60-212 c Motion. Constitutions
are the work, NOT of legislatures or of the courts, but of the PEOPLE. The People
give, and the People take away, Constitutional provisions.
The people's Constitution, Bill of Rights #3, mandates the length and breadth of
the court's liberal construction as to be applied to the poor, pro se and whether
interpretations that would change or modify the people’s Constitution amount to a
denial of equal access to government and equal protection of the Law. Alliance
Mortgage co. v. Posteen, 281 Kan. 1266(2006); Gallo v. Prudential Sers. 22 F .3d
1219 (2nd Cir. 1994) direct evidence of discrimination is RARE, nevertheless it is
the will of the people for equal justice in the Courts, this is more than inferred, it's a
Page 11

right, substantial. It is enough for the Pro Se to present his Petition and be
construed by the Courts for its intended purpose so as to have equal access to
present to the Courts. The very same thing that our KS. Bill of Rights protect s with
section 3 and 18.
Appellant filed a post-trial motion on November 26, 2018. It is plaintiffs
contention that this filing was treated according to the policy of pro se leniency, and
that supported by the fact that defendants vehemently objected to that motion, but
the court did construe and treat it as a motion brought under K.S.A. 2018 Supp.602103(a) when it convened the hearing on August 16, 2019 over said defendant's
objections, which complies with Kansas' Bill of Rights section 3 and 18.----Judge
Dahl proceeded as is normal if he would have construed the motion in a way to
allow him to proceed but without specifying
" We hold that [tlhe rights of a person injured by the tortuous act of another too
have remedy for his injuries in a court of law is one of the basic constitutional rights
guaranteed protection by the Kansas Courts." 297 Kan. 125 Syl. 3 free from bias,
any appearances of favoritism, and honest application of the law. KS. Bill of Rights
# 18 fundamental constitutional right to have a remedy for injuries to a person,
property by due course of LAW fundamental right. This applies to the very poorest
even the uneducated to come before the Court, not bound by the BA R’s Monopoly of
the Justice System in its adopting rules, free of their adversarial instituted system,
(placing an unreasonable impediment upon a Pro Se and one afflicted with pleaded
sever mental trauma not providing accommodations violates due process, also # 3
violating equal access to the Justice System in the Courts. The provisions of the
Constitution are self-activating basis for causes of actions for granting relief, that
being a government function of the State, precludes time limits on matters relevant
to self-government see. Schenek v U.S. 249 U.S. 470919).
Julie M Bradlow, Procedural Due Process rights of a Pro Se civil litigants, 55 U.
CHI. L. REV. 659-678(1988) (Noting that flexible construction of pro se pleadings is
meant to combat dismissal where a cause of action [ exist] but the motion fails to
say the" MAGIC WORDS".
The 10th Circuit asks the Courts to apply the pro se intent that makes the most
sense to the Law, seemed., Hallv. Bellman, 935 F .2d 1106-10(l0th Cir. 1991)
(describing liberal construction as requiring the Courts to read the pleadings to
state a valid claim if reasonable, despite, among other things, a pro se litigant’s "
confusion of various legal theories " and "poor syntax and sentence construction.).
Includes citation to the statutes, accommodations to be fashioned for confusion of
legal theories when afflicted with mental trauma, labored reasoning,
Page 12

Congress has addresses mental trauma by codifying the statutory right of EQUAL
ACCESS to the Courts. See.28 U.S.C. The plaintiff had to proceed without an
attorney afflicted by severe mental trauma directly caused by the defendants,
hiding behind the vial of the justice system represented by their insurance company
betting that the afflicted plaintiff would lose pitted against their assigned attorney
in litigating the whole case. Plaintiff would not be EQUAL in all phases of th IN
THE INTREST OF JUSTICE, the count MUST exhibit patience and tolerance to
the Pro Se to permit the widest latitude in any effort to prove the charges made in
his K.S.A. 60*212(c) Motion, see.91 C.J.S. P 126 FIN 44 Pete v Henderson,124 Cal.
App. 2d p .2d 78, 45 A.L.R.
2D 58(1 sat Dist. 1954). Our Supreme Court has said as much in its interpreting
K.S.A. 40-284 in Cannon v. Farmers Ins. Co. (Ks. Sup. Ct. 87,080(2002) implying
that insurance company s not set obstacles to the victims seeking redress for
injuries. AND in this same spirit Courts must not impose adopted rules that would
shield the wrong doers from the PRO SES reach because of LACK of knowledge of
the justice monopoly’s procedures.
See Robert Bacharach & Lyn Ent zeroth, Judaica Advocacy in Pro Se Litigation^ A
return to Neutrality, 42 Ind. L.REV. 19, 22-26 (2009) (noting that Courts created
ways to ensure that meritorious pro se suits would not be dismissed simply because
the litigants lacked knowledge and experience, one of which was liberal
construction). See Iqbal, 129 S, Ct. at 1950 (“When there are well-pleaded factual
allegations, a court should assume their veracity and then determine whether they
plausibly give rise to an entitlement to relief,”). The vexing of Judge Dahl by
Progressive Ins. through their hired agent Pamela Welch.
see Drew A. Swank, The Pro se Phenomenon, 19 J. PUB. L. 373-75 (2005) (noting
that the " American legal idea is that both the wealthy and the pauper could have
access to the courts and could be treated equally with the resulting decisions being
as fair as possible"). When a plaintiff pro se alleges trauma in mental process
directly related to the actions of the defendants being amplified See Swank, supra
note I, at 1546 (discussing the importance of self-representation to the fundamental
precept of equality before the Law) even to include the homeless, the poor.
See Van Wormer, supra note 20, at 993 (”[t]he self-represented 'are more likely
to...have
problems understanding and applying the procedural and substantive LAW
pertaining to their claim'
(quoting Buxton, supra note 31, at 114).
Page 13

See Edward M. Holt, how to treat "FOOLS”; exploring the Duties Owed to Pro Se
Litigants in Civil cases, 25 J. LEGAL PROF. 167-69(2001) (asserting that the
Supreme Court responded to the potential for UNFAIR dismissal of pro se cases by
requiring Judges to liberally construe pro se litigant's complaints). A judge cannot
order a trial wherein the pro se is ORDERED not to address the verdict questions
during the so-called trial that were presented to the Jury. This is way beyond unfair
not even in America except at the time when slaves were legally owned as property.
see, e.g., Weixel v. Bd. Of Edue.,287 F .3d 138, 145-46 (2d Cir. 2002) (constructing a
pro se complaint to make the best argument that the allegations suggest); Franklin
v. Rose, 765 F.2d 82, 85
Cir. 1985) (providing a pro se petition for habeas corpus an " active interpretation "
to encompass any allegation stating relief federal" (quoting White v. Wyrick, 530 F
.2d 818*19 (8th Cir. 1976) (per curium)))). Provides guidance in state cases.
See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curium) (admonishing the lower
court for dismissing allegations as conclusion when they were adequate to put the []
matters in issue") the establishing of the LAW of the case as set by Judge Woolley
tm
whether Mr. Moyer has set forth a legal justification for using his own iPhone to
continue to tract and stalk Mr. Mendia after seeing the target iPhone moving
around on his personal iPhone view screen, then with his own truck take Abby and
Casey to Mr. Mendia's location to severely shadow his truck causing injuries and
damages in violation of several LAWS., not even at the so-called trial. [[Simply put,
Courts should accept general statements regarding objectively verifiable facts, the
motive for certain can be confirmed or disproved by evidence, while that conduct's
constitutionality is a determination made only in light of such evidence.]] Mr.
Moyer's admitted to statements, admitted to under oath as plaintiff alleges, made to
his progressive insurance company treated as sworn testimony confirming plaintiffs’
claims.
It is the will of the people that they have equal access and due process to them
government i.e.- The Court guaranteed by the executive branch for the redress of
their grievances based on the merits of the facts. This Law is supreme expressed in
our KS. Bill of Rights sec. #s 1, 3, 18. Statutes and / or rules that prohibit this
fundamental right are prohibited. One example sees, State v. Kelly, 244 P ,3d 639 (a
Pro Sets failure to cite the correct statutory grounds for the claims made is
immaterial), reversed and remanded." Because the district court should have
construed the motion to express the proper legal intent.). The people further will
that a pro sets interest to present his case to the Court unhindered is of the most
supreme importance to warrant constitutional protection. As this case warrants.
Page 14

If that part of the judgment is attacked by a motion, is contrary to the public policy,
it is void under long established Law. See Exported Windell, 152 Kan. 776 (S. Ct. 61940 1935). KSA 60260(b)(4) Judgment under attack. The so-called Trial of
November 5 TH, and 6th,2018.

Page 15

REASONS FOR GRANTING THE PETITION

Every Kid in America over 10 years old mostly likely has a cell phone ranging
up towards $500 modern GPS technology is a feather in all of these modern cell
phone. What legal steps can one take when their cell phone is lost, stolen. The
intrusion of GPS electronic signals must be defined and regulated. The Police are
restricted from intruding into people’s privacy and should be likewise applied to
private citizens. Protections must be provided for urban prospectors who are usually
the ones who find lost items.
I was ordered by the court, that I could only address what happened when Mr.
Bower appeared at my Truck door window, at the trial. That was all I had prepared
for. Defendant presented their view of the whole case. I was unprepared to cross
examine. The Court was asking the jury, if Mr. Moyer and Miss ordered not to
address that issue because they had summary judgement. That question is totally a
question of law. This was an assault on Pro Se constitutionally protected due
process, equal access to Justice, through the Courts.
The Kansas Constitution’s Bill of Rights #3 protect to the outer most limits of
leniency and latitude for the people of Kansas to secure through the Courts
JUSTICE for afi.

On numerous occasions before the Judge Wolley and the trail Judge Dhal, they
remarked from the bench that there were no cases that they can find that addressed
civil virtual trespass and civil virtual invasion of privacy. For these reasons this
court is urged to hear this case to establish a ruling in civil litigation on these
issues.

Page 16

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted.

Erasmo Eddie Mendia.

Date-

Mi

Page 17

